<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-68]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                      AIR FORCE PROJECTION FORCES

                   AVIATION PROGRAMS AND CAPABILITIES

             RELATED TO THE 2021 PRESIDENT'S BUDGET REQUEST
                               __________

                              HEARING HELD
                           FEBRUARY 27, 2020


                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 
                 
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-499 PDF                WASHINGTON : 2021                   
                 

                                      

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
JARED F. GOLDEN, Maine               TRENT KELLY, Mississippi
ELAINE G. LURIA, Virginia, Vice 
    Chair
ANTHONY BRINDISI, New York
                Kelly Goggin, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                           Sean Falvey, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Wittman, Hon. Robert J., a Representative from Virginia, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2

                               WITNESSES

Roper, Hon. William B., Jr., Assistant Secretary of the Air 
  Force, Acquisition, Technology and Logistics, U.S. Air Force; 
  accompanied by Lt Gen David S. Nahom, USAF, Deputy Chief of 
  Staff, Plans and Programs, U.S. Air Force......................     3

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    25
    Roper, Hon. William B., Jr., joint with Lt Gen David S. Nahom    29
    Wittman, Hon. Robert J.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    55

Questions Submitted by Members Post Hearing:

    Mr. Cisneros.................................................    60
    Mr. Conaway..................................................    59
                  
                  
                  AIR FORCE PROJECTION FORCES AVIATION

                PROGRAMS AND CAPABILITIES RELATED TO THE

                    2021 PRESIDENT'S BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Thursday, February 27, 2020.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
CONNECTICUT, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Courtney The Seapower and Projection Forces 
Subcommittee meets this afternoon to hear testimony on the 
Department of Air Force fiscal year 2021 budget request. Before 
us today to discuss the request are Assistant Secretary of the 
Air Force for Acquisitions, Dr. William Roper, and Deputy Chief 
of Staff for Plans and Programs, Lieutenant General David 
Nahom. Did I pronounce that right? Okay. Thank you. Thank you, 
both, for being here today.
    The bombers, tankers, and airlifters under our oversight 
form the critical backbone of our ability to project force and 
support operations around the world. With increasing age and 
readiness challenges, the current fleet is already strained in 
meeting key warfighting requirements.
    The Department of Air Force's budget request for 2021 
proposes force structure cuts across these critical 
capabilities, retiring dozens of aircraft over the next 5 
years, and asks to redirect a large share of that money towards 
modernization and advanced capabilities.
    The question for our subcommittee as we begin our work on 
the next NDAA [National Defense Authorization Act] is whether 
this budget request properly balances the investment in the 
future capabilities with the risk being assumed by giving up 
already strained capacity today. For example, the budget 
proposes to procure 15 new KC-46 tankers in 2021 while retiring 
29 legacy tankers. At the same time, the Air Force plans to 
continue accepting new KC-46, even as the fix to ongoing 
problems with the remote visual system [RVS], a key element of 
refueling capabilities, is still being developed. And I am sure 
we are going to hear about that this afternoon.
    Just last week, I had the opportunity to see the KC-46 
program and the RVS system firsthand. That visit made clear to 
me that this is a fundamental hardware problem that must be 
resolved to make this system workable. I understand efforts are 
underway to establish a path towards resolving these issues and 
I hope we will see a clear plan soon.
    While that process continues, however, the budget asked 
this committee to authorize retirement of tankers as the 
aircraft meant to replace them--to authorize the retirement of 
tankers as the aircraft meant to replace them cannot be flown 
operationally. Our mobility commanders are raising serious 
alarm about the critical gaps this will create in our aerial 
refueling requirements. This subcommittee has been and will 
continue to scrutinize whether the Air Force's stopgap plan is 
the right approach.
    Similarly, I am concerned that the Air Force continues to 
lack a plan for sustaining the tactical airlift capabilities of 
our Air National Guard. This committee has pursued a two-
pronged approach on this important issue: first, directing 
congressionally directed investment and modernization efforts 
like upgraded avionics, safety enhancing propellers and high-
performance engines; and second, pursuing congressionally 
directed procurement of new C-130Js [transport aircraft].
    I say congressionally directed because it has been 
Congress, in many cases this subcommittee, who has led these 
efforts when the Air Force budgets have failed to do so. That 
appears to be the case again with a plan to replace 24 C-130H 
aircraft with 19 C-130Js in 2021 and no further plans to 
modernize or recapitalize the fleet beyond required electronics 
upgrades. This remains a top concern of the subcommittee and 
one that we hope we will address in the 2021 defense 
authorization.
    With that, now I would like to welcome our on-time and 
highly qualified ranking member, Rob Wittman, for his opening 
remarks.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
    VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Well, Joe, thank you again and thanks so much 
for your leadership and I appreciate you yielding the floor and 
I want to thank our two witnesses today for testifying before 
us.
    As we take a look at this budget request, it appears that 
this budget is only the beginning of an effort to address a 
great powers competition and that we have a long way to go. I 
am supportive of many of the efforts to divest certain legacy 
aircraft and use that funding as a down payment on future 
requirements. In fact, I have been encouraging all of the 
services to do this. However, I do remain concerned about two 
specific areas in the budget request, namely bombers and 
tankers. As to bombers, we have been on this journey for 
several years. Because of the nature of future conflict, 
bombers will be an increasingly valuable asset over shorter 
range capabilities to ensure the U.S. has persistent operations 
in a contested environment.
    Giving credit where credit is due, the B-21 Raider looks 
like a promising capability and is tracking toward timely 
delivery. However, as to our existing bomber force structure, I 
continue to have concerns with our B-1 Lancer low mission-
capable rates, the recommendation not to modernize the B-2 
Defensive Management System, and considerable uncertainty on 
the bomber road map. And I remain concerned about our ability 
to project long-range strikes. Considering the recommendation 
to retire certain B-1 bombers and not modernize the B-2, I look 
forward to careful assessment of the budget request to ensure 
we retain adequate strike capability.
    The tanker force structure may be the most perplexing 
element in the budget request. With a recommendation to retire 
certain KC-135 and KC-10 aircraft and the continued delay in 
delivering capable KC-46A aircraft, I think that we need to 
make significant changes. I do not understand why the Air Force 
continues to accept deficient KC-46A tankers that are not 
mission capable. We may be years away from an adequate 
capability, and I want to give the Air Force credit for their 
tremendous efforts to make sure we get there. I think there has 
been a lot of progress that had been made, but we are still 
years away. Yet, the Air Force appears ready to enter into a 
full-rate production of a deficient KC-46A aircraft and has 
requested an astounding 15 KC-46A aircraft in its budget 
request.
    If Senator John McCain were here today, I am very confident 
of what his response would be. Considering the multiyear effort 
to fix KC-46A, I think it is time to slow down ordering and 
delivery of deficient KC-46A aircraft and to retain adequate 
legacy tankers to ensure that we can provide adequate 
capabilities. It is not surprising that General Lyons, 
commander of U.S. Transportation Command, indicated last week 
that this budget request ``creates a capacity gap with 
significant impacts to combatant command daily competition and 
wartime missions, and negatively impacts senior leader decision 
space for mobilization when confronted with a crisis.'' I agree 
with General Lyons and think it is time to reverse this 
dangerous trend.
    Again, I thank Chairman Courtney for his leadership and for 
having this important hearing and I yield back the balance of 
my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 27.]
    Mr. Courtney. Thank you, Mr. Wittman.
    And now Dr. Roper, the floor is yours.

STATEMENT OF HON. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
THE AIR FORCE, ACQUISITION, TECHNOLOGY AND LOGISTICS, U.S. AIR 
FORCE; ACCOMPANIED BY LT GEN DAVID S. NAHOM, USAF, DEPUTY CHIEF 
          OF STAFF, PLANS AND PROGRAMS, U.S. AIR FORCE

    Secretary Roper. Chairman Courtney, Ranking Member Wittman, 
and distinguished members of the subcommittee, I thank you, 
one, for holding this hearing today and for your interest in 
the future of the Air Force and for the support that you 
provide our systems and our airmen and their families.
    We are very excited to talk with you about the things that 
are positive in our budget, the things that we are doing to 
modernize to get prepared for peer competition, the things that 
we are doing to speed up the acquisition system so we can 
compete long term, and our ability to keep the force that 
fights today ready.
    We are very mindful of the time that we have for today's 
hearing, so with your permission I would like to have our 
statement read into the record, our written statement. And with 
that, we would like to go ahead and go to your questions, sir.
    [The joint prepared statement of Secretary Roper and 
General Nahom can be found in the Appendix on page 29.]
    Mr. Courtney. Great. No objections. So again, for the 
record, it is 4:45 is the hard stop with Dr. Roper. Okay.
    So why don't we--I am going to ask just one question and we 
will move along here. I have a question on the KC-46. Having--
again, having had a chance to visit just last week. And I know 
Mr. Norcross and Mrs. Hartzler also were out in California as 
well, and--sorry, Washington State as well.
    Can you just kind of give an update in terms of just the 
process of what the Air Force did in terms of its sort of 
deeper analysis in terms of using science and medicine and just 
sort of how that has affected the plan moving forward?
    Secretary Roper. Mr. Chairman, it has been an interesting 
and really fascinating progress on KC-46 just from an 
intellectual standpoint, but as a scientist I have really 
enjoyed learning that an RVS is much more complicated than just 
mere cameras.
    As a reminder, about 18 months ago, we were still arguing 
over pictures. We would have images that were washed out where 
you couldn't see the receptacle side by side with images where 
you could see the receptacle perfectly. And we didn't 
understand how to design an RVS, how to look at performance 
specifications and know it would work prior to making it. That 
is when we brought on scientists from the Air Force and for 
Boeing who are experts in human vision, who are experts in how 
humans interact with displays. And we really put the reins in 
their hands. We asked them what are the basic technical 
characteristics that tell you a remote visual system will work 
where you know that before you build it and you can measure any 
system up to those standards to know that it will work in the 
field.
    When we accepted the first aircraft, we modified the 
contract. We shifted from the vague language of the firm-fixed-
price contract which was the original one to nine critical 
performance specifications. Over the last year, we have been 
looking at trying to--well, Boeing has been looking at trying 
to tweak the current design. Over the last 3 weeks, I have seen 
the team make more progress than they did during the year that 
preceded it with the scientists really converging quickly on 
the designs that will pass. Though we have more work to do, the 
commitment that I have with Boeing is that science will lead 
the future of the program. We will be data driven. We will be 
science driven and as long as we stay in that technical 
framework, I am very confident of getting to an agreement 
quickly that will pass muster for the warfighter and for the 
taxpayer as well.
    Mr. Courtney. And again, just real quick, so the initial 
analysis which again sort of just looked at like you said, the 
interaction between the human eye, nervous system, and the 
existing system that was there, I mean what was--there was 
obviously an impact in terms of the airmen. And maybe you can 
just sort of describe what that was physiologically and then I 
will yield to Mr. Wittman.
    Secretary Roper. Yes, sir. So, the original contract 
doesn't call for remote visual system. It just says deliver a 
tanker that can tank. The RVS was a design choice for Boeing. 
And I think early on, because Boeing had built past tankers 
with remote visual systems, they thought it would not be 
difficult, but it is much more complicated than meets the eye, 
pun intended. And some of the choices they made on previous 
tankers, they had happy accidents where mistakes canceled each 
other out and they got better performance than we currently 
see.
    We are now at such a level of technical understanding that 
we understand how men and women will be affected differently, 
how old and younger operators will be affected differently 
because age of eyes affects performance, distance of pupils 
affects performance.
    We now know terms like focus fixation mismatch and 
dipvergence and depth plane compression and curvature, things 
that were not parlance in the tanker a year and a half ago. 
These are the things that we measure to ensure that the tanker 
represents on the display the three-dimensional reality that is 
outside. So, the scientist would understand that far better 
than I do. I have gotten smart because of them. They are 
bringing in designs and showing us which ones are capable of 
meeting a level of performance that can tank every aircraft and 
which ones can't.
    When I say we have made more progress over the last 3 weeks 
than the year before, I don't think I have ever seen a program 
make this much progress this fast. And the thing I will take as 
a takeaway from this is things are a lot better when you have 
technical people leading. You get to agreements faster and so I 
am excited for the future of the program as long as scientists 
and engineers continue to lead and we are data driven in our 
decisions. I wish I could say more. We are still negotiating 
with Boeing, but we are making progress and we are trending in 
the right direction and trending quickly.
    Mr. Courtney. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Dr. Roper, I wanted 
to get a little bit deeper in the KC-46A. Last month, Chief of 
Staff General Goldfein came and testified before us and said 
none of the timelines for the remote visioning system were 
going to be met, and based on Boeing's latest proposal, the 
timelines to get a final fix to the warfighter is going to slip 
to the right by 2 years.
    First of all, I wanted to get your thought on that, if you 
agree with General Goldfein's assessment. Second of all, with 
these deficiencies, is it wise to go to full-rate production on 
KC-46A? And should we not take some kind of pause or at least 
reduce to the minimal acceptable level of delivery under the 
contract until we get the permanent fixes to both the hardware 
and software?
    Secretary Roper. Ranking Member Wittman, with respect to 
the key testimony, I had seen the change in the last 3 weeks, 
so I will just say the pressure and encouragement that is 
coming in from senior leaders like General Goldfein, from 
members like yourself, and the interest that you take in going 
out and seeing things in the real world which is very helpful 
for us because when we are having discussion in a hearing like 
this we are discussing from a common frame of reference. All of 
that is helping us trend in the right direction. So, give me a 
few more weeks to continue to work the details, but I am 
excited about the future of KC-46 for the first time.
    With respect to acceptance rates, you are absolutely right. 
There is a certain number that Air Mobility Command needs to 
get operators trained, to get maintainers trained, to start 
standing up new bases that need to have some proficiency with 
the vehicles. And it is a tanker, but it is also a mobility 
asset and an aero MEDEVAC [medical evacuation], so some number 
have use and that is for the warfighter to decide.
    The thing we wrestle with in the current contract is that 
if we accept fewer than 15 per year we incur a cost penalty and 
12 is the minimum that we can accept. So, we were supposed to 
be accepting three per month. We have lessened that. We are at 
2.2 on average. And at the end of calendar year 2020, we plan 
to go down to 1.25. So, sticking at that 15 so we don't incur a 
cost penalty and so what we are balancing is the original 
contract that awarded everything. So, with the EMD [Engineering 
and Manufacturing Development], it was all the production lots 
with pre-negotiated pricing and if we failed to award, we lose 
that pricing. And so that is why we really want to get the RVS 
fixed as quickly as we can so that the fix cuts into the line. 
We can ramp up production. We can go to full rate and be 
excited about the tanker that we have.
    Mr. Wittman. Let me talk a little bit about B-2 
modernization. Last year, when you were before the committee, 
you said this, you said for programs like the B-2, we have to 
keep the ability to penetrate. We can't take risks there until 
the B-21 fields.
    If you look at the FY21 [fiscal year 2021] budget, we see 
that there is some risk because you recommend moving away from 
the B-2 [Defensive] Management System and not fielding it after 
$1.9 billion of investment into that system.
    The question is, do you still see the same risks that exist 
with having the variety of systems necessary to be able to 
penetrate? Do you believe that this $1.9 billion investment was 
the wrong investment, was not necessary? And where does that 
leave us today with having the ability to bridge that 
capability until we fully field the B-21?
    General Nahom. And sir, I will start out with this one and 
when we get into particulars on the DMS-M [Defensive Management 
System Modernization], I will probably turn it back to Roper 
for his assist in that.
    But first of all, on the bomber fleet, there is nothing 
more important to the Air Force. And if you look at what the 
bombers bring, no one else brings that. Our joint partners 
don't bring it. Our coalition partners don't bring it. And when 
you look at long-distance volumes of fires that you alluded to 
in your opening statement, that is the bomber force. The future 
of the bomber force for the Air Force is in a B-21 and a 
heavily modified B-52 and that is what we are looking towards.
    When you look at making that jump to great power 
competition, getting to that two-bomber fleet in the future is 
very important for the Air Force and keeping those two programs 
on track.
    When you look at the B-1 and B-2, they are very important, 
too, because there are some capabilities we need in the interim 
until we get there. For the B-2 specifically, its ability to 
penetrate, as well as its nuclear strategic deterrence mission. 
And the B-1 in just sheer volume of fires.
    Talking about the B-2 first, we need to keep the B-2. We 
need to keep it until we have a B-21 that is nuclear certified, 
and that is going to be about 10 years from now. And we have a 
commitment in that platform.
    In terms of the DMS-M, it is a program that was slowed. 
Also, there were some difficulties in the program. I will ask 
Dr. Roper to comment on that as soon as I finish with this. But 
when we look at that, we actually have ways we think we can 
mitigate that and what I would like to do is come back in a 
classified setting and talk more specifically about that 
because I think there is ways we can save money and apply that 
to B-21 and B-52 modernization and mitigate that risk in the 
interim.
    The B-1 is trickier. One of the problems of the B-1, we 
have used that airplane and overused it over many years and it 
is broken in many ways. And I will also have Dr. Roper comment 
on that because there is some engineering aspects of that that 
I think are very important.
    When you look at the B-1s right now at Ellsworth and Dyess, 
and you look at the mission-capable rates, and you look at the 
numbers of airplanes that are beyond service life and what it 
would take to recover those airplanes, going into this when we 
looked at the B-1 we said there is probably some number of 
those that we probably should take offline so we can use the 
same number of maintainers to concentrate on the airplanes that 
are more easily recoverable, more efficient to recover to a 
flying status. We did some very deep analysis and we think the 
number is 17 and that is within our President's budget.
    By taking the fleet down by 17 airplanes, that takes the 
worst actors offline and lets the maintainers now concentrate 
on the airplanes that have a better road to recovery. We think 
by doing this, we will get the mission-capable rate to a more 
acceptable level. The intention now is to hold that B-1 level 
until that fleet shakes hands with the B-21 when the B-21 
becomes operational. And we think that is a good path forward 
on the bomber to save some of the funds for great power 
competition while keeping some near-term capacity moving 
forward.
    Dr. Roper, I will turn it over to you for the DMS-M 
particulars.
    Secretary Roper. Yes, DMS-M, yes, too many acronyms in the 
Defense Department for me. When we were first tackling that 
problem, and I have been with that team three times and I am 
headed down to meet with them again tomorrow, I was hoping that 
what they had to do was the same thing we had to do on the OCX 
[Next Generation Operational Control System] which is the 
ground control station for GPS [Global Positioning System] that 
hit a brick wall and couldn't go further or Air Operations 
Center [AOC] 10.2. It is a shift the entire Department is 
doing, but we are really leading an aggressive charge in the 
Air Force and that is shifting from waterfall software 
development where you deliver code in huge chunks that are 
years apart to a process that is called agile or DevSecOps 
which is really fast spirals. It is something all of industry, 
defense industry is struggling with and it is just the way code 
exists in commercial industry.
    So, for programs like OCX and then AOC 10.2 which became 
the software factory Kessel Run, so if you have been to that, 
you know it actually feels like you are in a software company. 
You learn the process. You write good code. You win. So, we 
hope that that would be what we need to do for the B-2.
    The B-2 had something else, and so we experienced a 6- to 
8-month slip just to get the agile process in place. But unlike 
AOC 10.2, now Kessel Run, we are not deploying code to new 
computers. We are deploying them to old computers and the run 
time, the embedded systems on those computers are simply not 
known. And so, developers at Northrop Grumman who write good 
code in their development environment take it out to the jet 
and it doesn't run. And it is not their fault. It is that there 
are nuances on the jet that were unknown and now they have to 
debug them. They have to work regression testing and that drove 
a lot more time because the upgrade is significant. It is a 
system of systems that have to work together.
    And the lesson we learn out of this is that if we want to 
do a major modernization in the future and deploy onto old 
computers, the embedded systems are going to eat our lunch. 
Right? The lesson we learned on B-2 is a lesson we are going to 
learn every time. And as long as we are maintaining old 
systems, it is something that is going to bite us if we have to 
keep it relevant.
    The good news--and I know having to de-scope a program is 
not good news, but there is a lasting benefit from this--is we 
went out and tried to figure out how do we not have this happen 
again. And there is a technology that is very new and you may 
not have heard of this. It is called containerization or 
Kubernetes. It is an open-source development technology that is 
being driven by Google and other major companies. And it is 
amazing. And it solves the problem that we experienced on B-2. 
And I won't bore you with the technical details, but in a 
nutshell, it ensures that code runs the same way bit for bit on 
any kind of computer. And to demonstrate it, we actually went 
from a development laptop to the F-16 recently with no steps in 
between and code ran exactly the same way.
    So, this containerization trend which you can imagine makes 
sense for the Internet of Things, you want to deploy code to 
the world of connected things and have it run in a predictable 
way. It is going to help solve a lot of our problems. 
Unfortunately, it was a technology that wasn't trending when 
this program began and we've learned a lesson the hard way, but 
it is a lesson that I don't intend to learn again.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you, Mr. Wittman.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. Dr. Roper, General, it 
is good to have you here. As he mentioned, we were out in 
Washington to look at the KC-46.
    So, a couple of areas I want to just look at a little bit 
closer. Class 1 deficiencies, as I understand them, it is the 
tie-down system which an approval for the fix has been made, 
correct? The second one is the boom, the stiffness, which comes 
back on us, has the responsibility on working on that; and 
obviously, the 800-pound gorilla is the RVS system which, as 
Joe had mentioned, we got a deep dive.
    The bad news is we had to do it. The good news is we now 
have the latest, most up to date that we would not have if this 
was on its original schedule. So that is a good thing. I 
believe we are going to come to an accommodation that works for 
us shortly and that is a relative term to where we are at, 
which is the good news.
    Would you explain to us if we decide to delay the purchase 
of additional planes in addition to the cost factor you were 
talking about, how does Boeing, once that new system for visual 
is approved, how do we make that up if we are postponing the 
purchase of planes?
    Secretary Roper. And sir, just to understand, do you mean 
taking acceptances all the way to zero or----
    Mr. Norcross. Yes.
    Secretary Roper [continuing]. Taking them down to the 
minimum amount. So, if we go below 12 per year, then we break 
the contract.
    Mr. Norcross. A sure number. And as I--it is on Boeing's 
dime, right?
    Secretary Roper. It is. So sir, all the retrofitting, the 
designing, that is on Boeing's nickel. But one of the things 
that has been tough on KC-46 is because everything is wrapped 
up in a firm-fixed-price contract where the government doesn't 
get insight into design, we are not getting taskings, we are 
not approving things. It really puts the reins in the 
contractor's hands. I am not saying that is a bad practice for 
everything, but for something unprecedented like an RVS, hasn't 
been done before, in hindsight it is a very bad business model 
to work with industry.
    Mr. Norcross. I think Boeing would agree with that.
    Secretary Roper. Given the billions that we are in, and the 
fact that we have got a plane that our pilots like flying, it 
is good for mobility, it is good for MEDEVAC, but we just have 
this bad RVS system. We have got to play this forward. And so I 
feel kind of like I guess a closer in baseball that I am 
inheriting a lot of runners, but we have to get out of the 
inning and we are closer to getting out of the inning than 
starting a new game.
    Mr. Norcross. And the production line is going to be much 
quicker retrofitting that one piece than waiting to build the 
entire plane.
    And to Mr. Wittman's comment, I agree with that. It seems 
counterintuitive that you want to purchase a plane that is not 
ready. But that time to retrofit it is much less.
    Secretary Roper. Yes, sir. That is why we would like to go 
down to the minimum that preserves our airplanes and the 
pricing. As we come to resolution with Boeing on design, we 
would like whatever needs to be retrofit, if it could be put in 
the production line before the whole fix. So those prudent 
things so that the retrofit can be done.
    And then, of course, there is an art to retrofit. Do we fly 
all the planes in or do we do it as part of the maintenance 
cycle? Those are all things that are in the reins of Air 
Mobility Command to decide, but the thing I am now feeling 
positive about is we are reaching agreement on what constitutes 
a working RVS in a way that involves numbers.
    Mr. Norcross. The retirement of the KC-135s and KC-10s, 
consideration of not having capacity is going to be huge here. 
How are we mitigating that with the budget containing those 
cuts? And are you considering outside resources for refueling 
in order to make up for that? General.
    General Nahom. Sir, as we bring on the KC-46 with the 
limited capability we have right now and we start retiring some 
of our KC-135s and KC-10s, these are very difficult decisions 
and certainly nothing we would want to do.
    Obviously, we know that as we take air refuelers offline 
that we can use, we are incurring risks for the combatant 
commanders in current day operations. There is certainly a look 
towards the future of what we need our Air Force to look like 
in great power competition. Just like the bomber, the two-
bomber fleet, we are going to be a future of a two-tanker 
fleet, the KC-46 and the KC-135 moving forward. And there is 
some divestment that has to happen to make room in both money 
and people and in some cases ramp space as we move forward. So, 
we are watching that very closely.
    We know as we let KC-135 and KC-10s go to the boneyard as 
we retire them, we know that we are incurring the risk because 
of the condition of the KC-46 and that is why we are trying to 
work very closely with the combatant commanders and the users 
for that near-term risk.
    I will say that with the KC-10s, probably more important 
that we actually keep that on schedule because of the manpower 
and the ramp space limitations. The KC-135, we have done some 
things. If you are familiar with Pease [Air National Guard 
Base] and North Carolina at Seymour Johnson [Air Force Base], 
where we have Active Duty association, so Active Duty airmen in 
those Guard and Reserve units, we have actually--are pulling 
out those Active association manpower out, so we can actually 
put them in the broader KC-135 environment. That way we can 
transition Pease and Seymour Johnson to the KC-46 with their 
limited ability to perform the refueling mission and still use 
those airmen to keep some more KC-135s out of the boneyard. So, 
we are doing some things to help mitigate the risk, but it is 
going to be a difficult discussion going forward.
    I will say though when we looked at this President's 
budget, we did have to balance risk across all portfolios. 
There were some things we did that were very uncomfortable, 
canceling one of our hypersonic initiatives, accepting less 
fighters than we would have liked, certainly some of the 
munitions we weren't able to get after. And this certainly is 
indicative of that.
    I think the last thing I will say is that we have set for--
when we go back to the Air Force We Need study and 386 
operational squadrons. We know that the Air Force we have right 
now is too small for what is being asked of our Air Force, from 
our Nation. The size of the tanker fleet is certainly 
indicative of that, of an Air Force that is just not big enough 
right now to do all the missions that are being asked of it.
    Mr. Norcross. Thank you. I yield back.
    Mr. Courtney. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. General, you may have 
answered this, my question, when you were talking to Mr. 
Wittman, but the bomber vector going from B-1, B-2s to just B-
52s and the new B-21, looks like you are retiring older planes 
and keeping--you are retiring younger planes and keeping older 
planes flying for 100 years. Is that in your answer on the B-
1s?
    General Nahom. It wasn't, sir. I will tell you, I will let 
Dr. Roper comment on this as well, but what is interesting 
about the B-52 is these are old airplanes, but they are 
relatively young in terms of flying hours. Many of these 
airplanes sat a lot of nuclear alert through the Cold War and 
have relatively low hours on them in comparison. And so there 
is, if you look at that, what we need a bomber to do and what 
we can do with the B-52, with the Civilian Engine Replacement 
Program, the CERP, as well as the new radar and some of the new 
digital backbones, we are going to be able to do things with 
that airplane that we would not be able to do with a B-1 and a 
B-2. And I will let Dr. Roper comment on that as well.
    Secretary Roper. Thanks, General. I think Indiana Jones 
said it is not the years, it is the mileage and very much 
applies to airplanes. The B-1, particularly, has been an eye 
opener for me because I usually have been a high-tech developer 
for most of my career, so coming into this Air Force job you 
get a lot of sustainment. I have learned a lot about it. But 
going through those first five tails with General Ray where we 
realized that some of the bombers were much harder flown, they 
required much more aggressive inspections to keep them flying 
in operations, and that trying to maintain that level of 
operational availability was just a disproportionate tax on the 
fleet. So that then started the look at, is there a break point 
that would allow us to retire a number of airplanes so that we 
could raise the readiness of the remaining fleet because you 
are maintaining things that are easier to maintain.
    Mr. Conaway. Okay. Well, then how is the re-engineering 
going on the B-52? Is it on schedule, on budget?
    Secretary Roper. Sir, it is going well. So, this is one 
where we were able to start the program much, much earlier 
because of the authorities, rapid prototyping authorities that 
Congress granted us. So perfect in the wheelhouse for that 
because the first step in the program is using digital 
engineering to start representing the engine mating with the 
aircraft.
    We will release the RFP [request for proposal] for the 
engines this year, so we have got Boeing designing the power 
pod. We will get the engine vendors mating their digital twin 
with Boeing's. And then the step after that is the physical 
prototype. Only after that will we move to a formal major 
program. The prototyping helps us de-risk going into it. So, 
this is just a great case of fly before you buy, but in this 
case, flying for us is the digital twinning. It is playing that 
same de-risking role.
    Mr. Conaway. All right. And then where are you going to 
base the B-21 and when will we know that?
    General Nahom. The B-21 right now, sir, Ellsworth, Dyess--
Ellsworth, Whiteman, and Dyess where your currently B-1 and B-2 
fleet are.
    Mr. Conaway. So, you will split them at all three?
    General Nahom. They will be split between the three, yes, 
sir.
    Mr. Conaway. And then for the uninitiated, I was in the 
Army, not in the Air Force, the second category problem with 
the KC-46 is the telescoping can thing. I understand RVS being 
brand spanking new, but for those who are uninitiated, why is 
it that we have got a problem with that telescoping can that 
isn't a problem in other booms that we have been doing for 50 
years?
    Secretary Roper. Yes, sir. It's a good question. So, the 
tanker fleet we have now is old. So, it works. It has been 
built for the legacy fleet. This is the first time we have done 
a new boom in a while.
    Boeing designed the boom for the international standards 
called 7191 where other tanks are built for. It has I think 
1,400 pounds of pressure and that is good for almost every 
airplane we have except the A-10. So, the A-10 needs something 
that is closer to 600 to 800. And so, we needed to deviate from 
that international standard for the A-10 and so that is where 
the requirements change came from us.
    Mr. Conaway. So, the current tanker fleet can refuel the A-
10s with the old booms?
    Secretary Roper. It can and what I wish had been known is 
that the current tanker fleet, because it is not new, was not 
designed to that international standard. It was designed below 
it. So, what has to be done is just change out the actuator in 
the boom so that it is softer for the push.
    Mr. Conaway. Okay, and that will get done before the RVS?
    Secretary Roper. Yes, sir. It is straightforward 
engineering.
    Mr. Conaway. Thank you, Chairman. I yield back.
    Mr. Courtney. Thanks, Mike.
    Mr. Gallagher.
    Mr. Gallagher. What a surprise. You have lost your 
reinforcements on the left. So, I want to pull the string on 
the B-21 issue a little bit if we can because as I understand 
it the Air Force plans to purchase no less than a hundred B-
21s. Correct?
    General Nahom. Correct.
    Mr. Gallagher. So then assuming that B-21 program that will 
arrive on schedule with the projected delivery date of mid-
2020s, I guess the question is what number of operational B-21s 
will be sufficient to retire the B-1B and the B-2A bombers and 
approximately what year will that be? I don't know who wants to 
take that.
    General Nahom. You know, as you look at the B-1 fleet, and 
a fleet now which is going to be less, 44 aircraft moving 
straight across, these are the decisions, I would say there is 
probably a little bit of unknown in that because the B-21 right 
now is on track and doing very well, but there will be some 
challenges going forward. So, we know that we are going to get 
the B-1 fleet and we divest.
    Now just like we do at any base with any airplane, there 
will be as the first B-21s goes into the--the first site, there 
will be a transition period where that base will bring down 
their B-1s and will bring in their B-21s. There will be a 
transition just like the F-35s are happening at Burlington 
right now. The F-16s have gone away. The F-35s are showing up. 
The crews are retraining and all that is going to happen. So, 
there will be a transition and that will go base to base. So 
you will have the first base will start somewhere like you 
said, mid to 2026, 2027 timeframe when the first aircraft show 
up. After that transition, then you go to the next base and 
then the next, so there will be an overlap.
    When that exact last B-1 flies out and goes to the 
boneyard, I think there is a window that is probably somewhere 
in the late 2020s, early 2030s, and I think there is enough of 
a variable right now, I probably couldn't pin it down just yet. 
Sir, anything to add to that?
    Mr. Gallagher. Fair enough. And I think the concern would 
be if the B-21 gets delayed, right? Are we then going to have 
to invest a little bit in B-1 in order to preserve long-range 
strike?
    General Nahom. Absolutely. And the airframes that are left, 
the 44 airframes that are left, we are investing and making 
sure they have the airframe and the avionics they need to carry 
that long-range strike through the 2020s. And we are going to 
have to do that.
    Mr. Gallagher. We heard yesterday or--I am losing track of 
time we have had so many of these hearings--I think it was 
yesterday. Secretary Esper told us that DOD is currently 
updating op [operations] plans in light of the National Defense 
Strategy [NDS]. For example, the first post NDS integrated 
naval force structure assessment is currently under review by 
the Secretary and it is likely the fleet will not see 
significant changes from its--will see significant changes from 
its pre-NDS force structure assessment.
    Given that the planned buy of a hundred B-21s was 
established prior to the NDS, does the Air Force have any plans 
to revisit that number in light of the NDS's focus on higher 
end threats and great power competition with China, in 
particular?
    Secretary Roper. Sure, I mean, I think the thing we are 
doing with China and Russia in our face, we are re-looking at 
everything. I mean the thing I am really proud of the Air Force 
and now Space Force for doing this last year was really taking 
a hard look at what it takes to compete and to win against an 
adversary like China. And that was basically my job when I was 
in OSD [Office of the Secretary of Defense]. It is wonderful 
being part of a whole service doing it.
    You know, roles and missions when you are fighting a peer 
are going to be different than fighting a non-peer or a low-end 
violent extremist, so I think the things before the NDS all of 
them are on the table to be re-looked at.
    General Nahom. And I will say that the number 100 was 
always the minimum. And if you look at the Air Force we need 
starting at 386 operational squadrons, that number is--the 
number of total bombers is over 200 and that would be, if you 
look at the number of B-52s we will have left, that will be a 
larger fleet than 100 on the B-21.
    Secretary Roper. And it is very clear range and capacity 
really matter in the future fight.
    Mr. Gallagher. Dr. Roper, I was mentioning earlier when I 
ran into you in Silicon Valley a little bit ago, if you 
wouldn't mind, talk a little bit about your efforts of outreach 
there and how they have borne fruit in terms of reaching out 
beyond defense primes and some of those relationships that you 
have built in Silicon Valley.
    Secretary Roper. I really appreciate the question. This is 
some of the most fun work that I am doing right now in the Air 
Force. And the thing we are up against is we are only 20 
percent of R&D [research and development], so 20 percent of 
this Nation's R&D is in defense. And so, the opportunities are 
increasingly in commercial tech and of course, you are well 
aware the Defense Department has not made great inroads with 
Silicon Valley and commercial startups.
    And the thing that has been fun is trying to reset the 
relationship by showing that we can speed up our purchasing 
system, that we can use our military market to aid 
commercialization. So last year, we did 15 events that we call 
pitch days where we can have a startup pitch to us and we can 
put them on contract that same day and pay them that same day 
which is night and day difference based on the defense 
procurement system of the past. That has gone a long way to 
opening up the doors with private investors and venture 
capitalists [VCs] who now view our quote investment arm, the 
one that is making early-stage contracts with startups, viewing 
it as an early market delineator. And so, we have brought 
hundreds of millions into Air Force programs just from VCs 
saying well, that company is on contract with the Air Force. 
They have got a chance of commercializing using the Air Force 
market; I probably need in.
    This is the year we are going to try to go big and go with 
scale, but the valuable trend I am seeing is the way that China 
is engaging in Hong Kong is opening up a window of opportunity. 
And startups and investors are starting to view--taking Chinese 
money differently than they did in the past.
    And now is the perfect time for the military to come in as 
an investment partner of choice because we are not owning 
equity, right? And we are a different market than the 
commercial one. We can pay a higher price point and we don't 
need things in the same quantity. So right now, rather than a 
startup or a scale-up thinking working with defense is hard and 
slow, I hope that they think in future that is the natural 
first step.
    Mr. Gallagher. Thank you. I am way out of time.
    Mr. Courtney. Thank you. So, I guess Mr. Kelly was here 
when the gavel came down just before----
    Mr. Kelly. Thank you, Mr. Chairman. You know, I 
acquisitioned programs across all four services, DOD. I am a 
lawyer by profession, but I wouldn't practice contract law 
because I don't know what I am doing. And we seem to think that 
fighter jockeys or that great infantry generals are going to be 
great acquisition guys to write these contracts. We get taken 
to task on these things. And we have got to stop that.
    You know, it makes no sense that we have to take 12 planes 
or we have to pay a penalty, yet we have to pay for planes that 
don't meet the requirements that we ask for and there is no 
penalty. That makes absolutely--we have to get professional 
lawyers. We contract a lot in the military. Maybe we need to 
contract some good contract lawyers to do acquisition. And that 
is just a comment. I will leave that.
    But I want to get into, I recently flew into Iraq on an 
Illinois National Guard C-130. It was not the J model. I was 
also in Rota a few days later and there was a C-17 Mississippi 
National Guard tail sitting there. I say all that to say the 
current distribution of older C-130Hs and the newer 130Js seems 
out of balance throughout the total force. Air National Guard 
and Air Reserve C-130 squadrons comprise 76 percent of the Air 
Force's B-130 fleet, but only 15 percent of Reserve Component 
units are flying the modern C-130Js. However, every Active Duty 
C-130 squadron, 100 percent, are fortunate to fly the C-130Js.
    What are your plans to correct this imbalance and make C-
130 recapitalization and modernization proportional and 
concurrent as recommended by the 2014 National Commission on 
the Structure of the Air Force?
    General Nahom. Sir, C-130s is--first of all, thanks for the 
question. C-130s is a tough topic. We ask a lot of that 
community. They are incredible what they do. The whole tactical 
airlift community is just amazing. We have about 300 C-130s in 
the fleet right now. You are right. The C-130Hs are all in the 
Guard and Reserve. And as we look through the year, we actually 
have an exciting year because this year based on the 
congressional gifts and we thank you very much on the C-130Js, 
this year we are going to announce three new locations that are 
currently flying C-130Hs to transition to the C-130Js. Two of 
those were previously planned. One of them is kind of a new one 
because we were going to transition Martin State [Airport, home 
of Maryland Air National Guard 175th Wing] out of the A-10 into 
a C-130J and because of some other moves we are doing with the 
A-10 right now, we are actually going to leave Martin State in 
the A-10 and we are going to take those C-130Js and turn those 
into another C-130H unit. So, we are transitioning some units.
    For the C-130Hs that are left--the units that are left in 
the C-130H, we are actively upgrading those aircraft with 
obviously the safety of flight with the center wing box as well 
as AMP [Avionics Modernization Program] 1 for the compliance, 
AMP 2 for the modernized cockpit. And then in some cases, the 
3.5 motor and the NP2000 propeller system.
    Mr. Kelly. That is good, but I have got one more question 
and it kind of fits into the same thing, so you can kind of 
finish. But despite Air Force plans to continue utilizing the 
C-130 for at least 20 more years, the Department has seen fit 
not to request funds for C-130H modernization or new C-130Js 
for the Guard and Reserve.
    I realize reprogramming happened at the OSD level and not 
your level, but what is the operational risk incurred by the 
recent programming or fund intended for new C-130J aircraft for 
the Air National Guard?
    General Nahom. Sir, in terms of the additional C-130Js, I 
don't believe it is going to be an operational impact, although 
we have to look and see how that is going to impact the units 
that we are going to be transitioning to the J. And we are 
working through those numbers right now.
    The tactical airlift community, I think we are actually on 
a good road right now between the C-130Js, the upgrades of the 
C-130Js and the modernization of the C-130Hs. I think we 
actually have a good laydown of what we want to do with the C-
130 community.
    We do think there is room to reduce some of the C-130s and 
you will see that in our budget. And what we are doing, we are 
working very closely with the Guard and Reserve looking at 
units that are currently flying C-130Hs and seeing what other 
flying missions we need to bring into for modern Air Force. And 
we are working unit by unit to make sure we actually have a 
good fit and that is how the Martin State----
    Mr. Kelly. And I am going to reclaim the last 20 seconds, 
but I want to be real. We ask a whole lot of our Guard and 
Reserve units and they in strategic air in C-17s and C-130s and 
KC-135s and KC-46s and we always get--we are asked to do the 
missions on old equipment over and over again. And we provide 
the majority of the force, but we always seem to make them 
second-class citizens when it comes to fielding. And we don't 
need to do that.
    We need to make sure our airmen, whether they are Guard, 
Reserve, or Active Component, when they deploy downrange and do 
missions, we ought to have the best. And I just ask that we pay 
attention to that because it seems like the C-130Js that were 
scheduled are now cut out which means they will probably never 
get those because they were told to wait and then we will field 
you. And now they are being told well, we are not going to 
field you.
    So, I yield back, Mr. Chairman.
    Mr. Courtney. Thank you, General.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you. I just want to foot-stomp what my 
colleague just said about the C-130s. Of course, Missouri has 
one of those units there at Rosecrans, so I just want to put 
that on your radar for your consideration of the Js as you are 
looking at another place there because this divesting of the Hs 
could impact this unit potentially and so a few questions. Will 
the C-130Hs that have already received new engines and 
propellers remain in service?
    General Nahom. Ma'am, that would be the intention. What we 
will look at is if we do divest the C-130H units, we will 
obviously divest the oldest aircraft that are not modified and 
we will make sure the airplanes that have all the upgrades and 
have that life left, 10, 15, 20 years life left, those are the 
ones we will keep moving forward.
    Mrs. Hartzler. That is good. You touched on this a little 
bit, but the question about what's the recapitalization and 
modernization plan for the entire C-130H fleet, can you kind of 
summarize that again and when will the Air Force release a 
force structure plan?
    General Nahom. Right now, the C-130Hs, we do think we can 
reduce the C-130Hs based on as we balance risk across all 
portfolios. We know that the units are flying C-130Hs right 
now. Those airmen--that is where we make sure if we are going 
to reduce C-130Hs, what mission are we going to bring into 
those locations. And that is why we are actually going unit by 
unit seeing is there a better fit. And actually, we found 
leaving Martin State in the A-10. What you are going to see in 
the 2022 budget looking forward, we are actually going to--we 
will work with Congress on a couple of their locations we think 
we can bring different flying missions into those locations as 
we reduce the C-130H fleet to the size we think that balance 
risks across portfolio.
    Mrs. Hartzler. Got you. Will bases currently operating the 
C-130Hs receive the Js?
    General Nahom. Right. This year as we go through the 
strategic basing process, we are going to introduce three 
locations and we are going to use the entire C-130H enterprise 
to look at and we will score those appropriately and work very 
closely with your committee.
    Mrs. Hartzler. Beyond this year, like next year, are you 
going to be adding Js where Hs are?
    General Nahom. Well, right now, ma'am, we have the Js that 
we received based on congressional adds over the last few 
years. Those are the ones that are going to be moving into the 
H. In terms of the other units, without congressional adds the 
plan is to take the C-130Hs and upgrade those into the AMP 1 
and AMP 2.
    Mrs. Hartzler. Okay, great. I have two and a half minutes 
left. So, I wanted to get to the B-2. We have had a lot of good 
discussion. Appreciate the questions already asked. Appreciate 
the information already presented. A lot has changed in a year. 
And I am trying to digest it myself.
    Because at this hearing a year ago, I asked you, Dr. Roper, 
if the Air Force was committed to the DMS-M program and you 
answered in the affirmative. And now we are looking at proposal 
from you all to de-scope it and I received the classified 
briefing on that, so I understand why the decision was made, 
but unfortunately between the cancellation of the DMS-M and the 
previous cancellation of the B-2 advanced extremely high 
frequency satellite communications program, it just kind of 
gives a heartburn, raises red flags regarding the Air Force's 
commitment to modernizing the B-2.
    In the testimony, you shared some of the modernizations 
that you are committed to this year, but I was wondering just 
from your own words, can you kind of summarize some of the 
modernization that this President's budget is still including 
for this year?
    Secretary Roper. Representative Hartzler, aside from the 
de-scoping of DMS, there is the Flexible Strike upgrade. There 
is the movement to M Code the military GPS unit upgrade, the 
common VLF [type of radio receiver] receiver, Mode 5, Mode S, 
the crash-survivable memory unit, and the radar-aided targeting 
system. So, all those, JASSM [Joint Air-to-Surface Standoff 
Missile] integration, signature, and LO [low observable] 
maintenance and improvements, all of those are still funded 
and----
    Mrs. Hartzler. Right.
    Secretary Roper. I know you are short on time.
    Mrs. Hartzler. Sure, sure. So, I want to go back to the 
cancellation last year of the advanced extremely high frequency 
satellite communications program because you are funding at 
$215 million that same system on the B-52s. So, do we need that 
on the B-2 and how come you don't think it is necessary there?
    General Nahom. I would say in terms of the B-2 versus the--
the B-2 obviously, we were committed to the B-2 until the B-21 
could replace it because we have to have the B-2 and what that 
capability brings and the upgrades Dr. Roper referred to.
    In terms of capability in the B-52 and long-term upgrades, 
the B-52, like the B-21, is the long-term solutions for our 
bomber force. We want to make sure that we are continuing to 
upgrade the B-52 moving forward.
    Mrs. Hartzler. You sound like it is not necessary until the 
B-21 comes onboard, too expensive for the amount of time it 
would take, is that what you are basically determining?
    Secretary Roper. Based on how well the B-21 is doing, yes. 
If the B-21 were to slip and right now there is no reason to 
believe that it will, then I think we would reassess 
modernizing for the B-2. Like I say, it has to be our 
penetrating bomber until the B-21 is ready to replace it.
    Mrs. Hartzler. And I appreciate the chair's indulgence just 
for one quick question. If you could for the record get back 
with me, what do we get for our $1.9 billion for DMS-M that now 
we are de-scoping? So I would like to know what we got for our 
money. Thank you.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mr. Courtney. It is a very good question. So again, I think 
we have had actually a pretty efficient hearing here. We have 
covered a lot of topics. I want to again thank both the 
witnesses.
    I actually just have one other followup along the same 
lines as Congressman Kelly and Congresswoman Hartzler which is 
again on the C-130s; again, it seems like it always falls in 
our lap to do the plus-up for the NP2000 propeller 
enhancements.
    Again, I think a lot of us feel very strongly that based on 
other incidents that have happened in the Navy's C-130 fleet 
where you had loss of life because of propeller malfunction 
that this really is a safety issue. And it sort of is still a 
mystery to me why this is not really almost a program of record 
for the Air Force in terms of just doing what the Navy did 
which is just to go out and wholesale do this upgrade and 
enhancement.
    So, I just want to get your comment on that.
    General Nahom. Sir, as we look at the NP2000 and obviously 
we like the performance enhancement on the NP2000. For the 
existing propeller on the C-130H fleet though, there is a risk 
to that but we are mitigating that risk through our maintenance 
action and our increased inspections. I will let Dr. Roper 
comment on that. There are some things we are doing with that 
propeller to make sure that we do mitigate that risk correctly.
    Would we like to see NP2000s and 3.5 motors across the 
fleet? Yes. But it goes on to how we are balancing the money we 
have to make sure we have--we are balancing risks across all 
portfolios in terms of how we are modernizing. And right now, 
making sure the few NP2000s we have gotten, we prioritize those 
into the fleets that absolutely need the enhanced performance, 
the LC-130s on skis, the units in Wyoming and Nevada to fight 
fires and prioritizing those for upgrade.
    As we look across the fleet when we see the C-130Hs we 
keep, we certainly want to look at what we can afford to put 
onto these C-130Hs because we would like to have the enhanced 
performance on all of them. But in the meantime we are pretty 
confident that we have mitigated the risk in the existing 
propeller housing. Sir, I'll let you comment on that.
    Secretary Roper. Mr. Chairman, the very unfortunate 
incident, and again, our prayers go out to those families, put 
a focus on how we do maintenance on legacy propellers. And two 
things were discovered: that there was a manufacturing change 
in the pre-1971 54H60 propellers that have now been pulled out 
of the fleet, and that we really needed to change inspection 
practices to go over corrosion and intragranular cracks more 
aggressively. So those inspection procedures have now been 
implemented across the Air Force and I am confident that they 
are sufficient to keep the legacy propeller working.
    To General Nahom's point, having a higher performing 
propeller would be fantastic, but the budget we built, we took 
high priority efforts like our two hypersonics programs and had 
to cancel one because we were simply trying to balance risk 
across the mission. So, we made tough choices. I think in a 
different budget environment where there was more cash to go 
around, I think we would look at the propellers differently, 
but this was a risk-balancing case and if we could make the 
existing system, if we could sustain it safely and reliably for 
mission, then we had to go with that to get more modernization 
in for new systems.
    Mr. Courtney. Well, thank you. I don't question your 
concern about the issue in terms of the risk that we are 
talking about, but again, Mr. Kelly did a nice job in sort of 
describing the workload that this fleet is carrying and I think 
a lot of us are concerned that we really want to err on the 
side of safety. So anyway, I am sure we will continue that 
discussion.
    Mr. Wittman, do you have any other questions? Members?
    Again, thank you, both. Really, this is very solid 
testimony, very helpful as we move towards the mark. And with 
that, we will close the hearing.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                           February 27, 2020

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2020

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 27, 2020

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER

    Secretary Roper. The displays architecture developed in the DMS-M 
program of record will be leveraged to field the upgraded displays, and 
the program is evaluating optimal reuse of the developed software. 
Also, since the 2017 strategy pivot that leveraged other program 
hardware in DMS-M development, government programs could potentially 
benefit from shared hardware design upgrades, obsolescence refresh, and 
expanded vendor throughput which improves the ramp rate to production. 
Overall, the Air Force learned that agile software constructs are 
difficult to apply to legacy architectures, as the B-2 legacy 
architecture proved troublesome when applying the agile approach to 
DMS-M development. The Air Force will better account for integration of 
new technology and software on legacy platforms in the scope for major 
modernizations.   [See page 18.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. The B-1 is often described as the work horse the Air 
Force because of its versatile and evolving mission capabilities. While 
I understand the challenges with the fleet and these decisions, it is 
still concerning to see the Air Force's proposal to retire 17 of these 
aircraft without stronger justification.
    In order to better understanding the Air Force's decision, would 
you be able to provide us with the specific 17 B-1s proposed for 
retirement, including number of hours flown for each aircraft, last 
time the B-1 was flown, whether it was ever deemed ``unsafe to fly'', 
specific issues for the retirement of any particular B-1 and estimated 
cost to address those problems?
    Furthermore, if the Air Force retires the 17 aircraft, what is the 
current and proposed configuration for the remaining B-1 fleet? 
Specifically, in the terms of the number of Primary Mission Aircraft 
Inventory, Primary Training Aircraft Inventory, Primary Development/
Test Aircraft Inventory, Backup Aircraft Inventory and Attrition 
Reserve for each Air Force Base.
    Secretary Roper and General Nahom. [Note: AF/A8 coordinated with 
SAF/AQP on this response.] The proposal to retire 17 B-1 aircraft was 
not driven by the specific maintenance status of individual aircraft, 
but by a need to balance risk and affordability within the B-1 fleet. 
The Air Force considered divesting a range of B-1s, and determined that 
17 was the optimal figure. Divesting 17 aircraft maximizes maintenance 
and depot affordability (including the new structural repair line) for 
the remaining B-1 fleet, and frees resources for investment in future 
Air Force capabilities, while ensuring that no B-1 squadrons close and 
balancing risk to the Air Force's support to Combatant Commanders. The 
Air Force, at this time, has not identified which specific B-1 aircraft 
will be retired; however, the B-1 System Program Office (SPO) and Air 
Force Global Strike Command (AFGSC) have determined that the primary 
consideration in most cases will be the time-to-need for major 
structural repairs. For example, there are a number of B-1s that are 
already in need of a major structural repair and currently require in-
depth inspections every 200 hours until a permanent repair can be 
applied. These B-1s would almost certainly be among those retired in 
order to avoid these recurring inspections, and the cost and depot 
workload associated with installing a permanent repair. At the time we 
finalized the FY21 budget, the most likely tails to be retired resulted 
in a loss of 10 from Dyess Air Force Base and 7 from Ellsworth Air 
Force Base. AFGSC intends to make the net impact 9 from Dyess and 8 
from Ellsworth by shifting individual aircraft between bases as 
required, once retirements actually occur. Once the specific 17 B-1 
aircraft are identified, by tail, for retirement, the Air Force will be 
able to provide the specifics of hours flown, previous discrepancies, 
and estimated costs.
    The current and proposed configuration for the B-1 fleet is as 
follows:
    [The information referred to was not available at the time of 
printing.]
    Mr. Conaway. If the Air Force retire B-1s, what is the plan to 
improve readiness for the remaining fleet, including addressing current 
or potential structural problems? In addition, what is the Air Force's 
goal to for the B-1 Mission Capable Rate and the plan to achieve and 
sustain that goal? Furthermore, the Air Force has indicated plans to 
retain all B-1 maintenance billets. How many billets does the fleet 
currently have? How many billets are currently filled, and what, if 
any, are the plans to fill all B-1 maintenance billets?
    Secretary Roper and General Nahom. [Note: AF/A8 coordinated with 
SAF/AQP on this response.] The proposed divestment of 17 B-1s is 
directly tied to the Air Force's effort to improve readiness for the 
remainder of the B-1 fleet. The divestment enables this readiness 
recovery by:
    <bullet>  Retaining all B-1 maintenance personnel, improving the 
ratio of maintainers-to-aircraft
        <bullet>  Funded maintenance billets will meet or exceed 
        Logistics Composite Model (LCOM) requirements for the remaining 
        B-1 fleet size
        <bullet>  Improved ability to handle routine, daily maintenance 
        needs
        <bullet>  Enables continuing upgrade training of B-1 
        maintainers
        <bullet>  Enables the future transition from B-1 to B-21 
        without sacrificing B-1 maintenance
    <bullet>  Freeing depot-level maintenance workload
        <bullet>  Defers the need for the first major structural 
        repairs until FY23
        <bullet>  Allows increased focus on near-term, less severe 
        structural repairs
    <bullet>  Freeing approximately $1.2B over the FYDP, helping to 
fund:
        <bullet>  Ongoing B-1 sustainment and modernization
        <bullet>  B-21 research and development
    In addition to the above impacts of the proposed divestment, AFGSC 
has directed changes in the day-to-day operation of the B-1 in order to 
maximize its life. These changes include the elimination of low-
altitude high-speed operations, the reduction of flying gross weights, 
and a reduction in the maximum number of flight hours per year, per 
aircraft, to better balance flight hours across the fleet. Further, 
full-scale fatigue testing will further inform the future viability of 
the airframe, potentially necessary repairs and identify maintenance 
trends which will aid in increasing and sustaining mission capable 
rates. As of 17 Mar 2020, B-1 Maintenance Requirements (billets) and 
assigned manning are:

 
------------------------------------------------------------------------
                                  Funded
                                 Billets        Assigned      % Manning
------------------------------------------------------------------------
RegAF
 
  Officer                     16             13              81.3%
------------------------------------------------------------------------
  Enlisted                    2,145          2,113           98.5%
------------------------------------------------------------------------
  Civilian                    17             14              82.4%
------------------------------------------------------------------------
USAFR
 
  Officer                     2              2              100.0%
------------------------------------------------------------------------
  Enlisted                    158            107             67.7%
------------------------------------------------------------------------
  Civilian                    76             38              50.0%
------------------------------------------------------------------------


    The Air Force will continue accessing and hiring to the 
requirement. AF/A4 is developing a standalone Aircraft Maintenance 
Retention Strategy (as recommended by GAO report 19-160). This will 
establish retention goals by skill level based on loss and reenlistment 
rates. It will also address incentives aimed at changing behaviors and 
promoting retention within the AFSCs experiencing low retention. The 
outcome of these strategies will allow us to be proactive and attain 
our goal of filling all funded B-1 requirements.
    Mr. Conaway. The Air Force's FY19 Research, Development, Test & 
Evaluation (RDT&E) Budget for B-1 was $58,175,000. However, for FY20 
the Air Force requested only $1,000,000. Although the Air Force's plan 
for B-1 RDT&E increases to $15,766,000 for FY21, the Air Force Budget 
documents show no funding at all for B-1 RDT&E in FY24 and FY25. 
Similarly, the Air Force's Budget documents for B-1 Procurement show 
only $494,000 and $503,000 for FY24 and FY25.
    What is the Air Force's plan for upgrade and improvements to the B-
1 fleet, including expanded carriage and hypersonic weapons 
capabilities? Why is the procurement funding so low for FY24 and FY25 
and the RDT&E budget is non-existent?
    Secretary Roper and General Nahom. The remaining B-1 fleet will 
continue to be modernized to ensure sustained relevance, lethality, and 
survivability to the extent necessary to ensure operational viability 
for the life of the aircraft, with investment weighted toward the near 
years of the FYDP. Current funded programs include Integrated Battle 
Station, installation of digital Identification Friend or Foe 
technology (Mode 5/S), required crypto modifications, and 
communications mods (Multifunctional Information Distribution System 
Joint Tactical Radio System).
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. Secretary Roper, Advanced Battle Management System 
(ABMS), an effort to connect all forces to operate as a collaborative 
whole, is a priority for the Air Force, and the Joint Force. I agree 
this is a critical capability the Joint Force will need and am 
heartened to learn that others within DOD share the urgency. In his 
testimony to the Senate Armed Services Committee, NORTHCOM Commander 
General O'Shaughnessy spoke at length about recent efforts by NORTHCOM, 
in partnership with the Services and other combatant commands, to hold 
the first ABMS demonstration. What is the Air Force's plan for the 
companies that performed at these demonstrations and how does the Air 
Force intend to maintain momentum for these partnerships?
    Secretary Roper. The Air Force will continue to assess new 
capabilities demonstrated at ABMS demonstrations for their operational 
utility and affordability. Based on that assessment, the Air Force will 
decide to either continue and iterate on the existing capability, pivot 
to a new approach, transition to a scaled program, or cancel 
altogether.

                                  [all]
</pre></body></html>
